    Semiannual Report
     to the Congress




Office of Inspector General
           for the
Railroad Retirement Board


April 1, 2009 to September 30, 2009
                 UNITED STATES RAILROAD RETIREMENT BOARD

                             OFFICE OF INSPECTOR GENERAL



                                     October 30, 2009


The Honorable Michael S. Schwartz
Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report
provides a summary of our activities and accomplishments for the period
April 1, 2009 through September 30, 2009. This report is submitted in
accordance with Section 5 of the Inspector General Act of 1978, as amended.
The Act requires that you transmit this report, along with any comments you may
wish to make, to the appropriate Congressional committees and subcommittees
within 30 days.

During this reporting period, we completed the following audits:

    •	 Audit of the Railroad Medicare Integrity Program at Palmetto Government
       Benefits Administrators;
    •	 Audit of the General and Application Controls in the Financial

       Management Major Application System; and

    •	 Audit of the Railroad Retirement Board's Medicare Major Application

       System.


Our criminal investigators achieved 19 criminal convictions, 62 indictments
and/or informations, 17 civil judgments, and over $2 million in monetary
accomplishments.

The Office of Inspector General sincerely appreciates the ongoing assistance
extended to our staff during the performance of their audits and investigations.
We look forward to a continued cooperative relationship.

                                                 Sincerely,



                                             ~t~~Inspector General


844 N RUSH STREET Cl-llCAGO IL 60611-2092	                            (312) 751- 4690
TABLE OF CONTENTS

INTRODUCTION

Railroad Retirement Board                                             1

EXECUTIVE SUMMARY

Office of Inspector General                                           2

Office of Audit                                                       2

Office of Investigations                                              4

APRIL 1, 2009 – SEPTEMBER 30, 2009 ACCOMPLISHMENTS

Office of Audit                                                       5
Audit of the Railroad Medicare Integrity Program at Palmetto
Government Benefits Administrators                                    5
Audit of the General and Application Controls in the Financial
Management Major Application System                                   6
Audit of the Railroad Retirement Board’s Medicare Major
Application System                                                    7
Management Decisions and Implementation                               8

Office of Investigations                                               9
Investigative Accomplishments                                          9
Current Caseload                                                      10

Representative Investigations                                         11
Disability Investigations                                             11
Unemployment and Sickness Insurance Investigations                    13
Retirement/Survivor Benefit and Representative Payee Investigations   14
Railroad Medicare Investigations                                      17
Civil Enforcement Results                                             18

Hotline Contacts                                                      19

OTHER OVERSIGHT ACTIVTIES
American Recovery and Reinvestment Act of 2009                        20
Occupational Disability Program                                       21

OTHER ACCOMPLISHMENTS AND OUTREACH ACTIVITIES
Accomplishments                                                       22
Outreach                                                              23




Railroad Retirement Board, Office of Inspector General
TABLE OF CONTENTS

OPERATIONAL ISSUES
Reimbursement to the Agency                              24
National Railroad Investment Trust                       24

LEGISLATIVE & REGULATORY REVIEW                          25

APPENDICES
(A) Office of Inspector General Reports and Other
Publicly Available Documents Issued                      27
(B) Audit Reports with Questioned Costs or with
Recommendations that Funds Be Put to Better Use          28
(C) Report on Receivables, Waivers, and Recoveries
       Office of Investigations                          29
       Office of Audit                                   30
(D) Significant Matters                                  31
(E) RRB Management Reports                               32
(F) Reporting Requirements                               38
(G) Acronyms                                             39
(H) Legal Citations                                      40




Railroad Retirement Board, Office of Inspector General
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



          INTRODUCTION
                                                                              The RRB is an
          Railroad Retirement Board                                           independent
                                                                              agency in the
   The Railroad Retirement Board (RRB) is an independent agency in the        executive branch
                                                                              of the Federal
   executive branch of the Federal government. The Board consists of
                                                                              government.
   three members who are appointed by the President of the United
   States with the advice and consent of the Senate. One Board member
   is appointed upon the recommendation of railroad employers, another
   member is appointed upon the recommendation of railroad labor
   organizations and the third, who is the Chairman, is appointed to
   represent the public’s interest. Board Members’ terms are five years in
   length and expire in staggered years.

   The RRB administers comprehensive disability, retirement-survivor,
   and unemployment-sickness insurance benefit programs for the
   nation's railroad workers and their families. These programs are
   codified under the Railroad Retirement Act, 45 U.S.C. § 231, et. seq.
   and the Railroad Unemployment Insurance Act, 45 U.S.C. § 351 et.
   seq., respectively. The RRB also has administrative responsibilities for
   certain benefit payments under the Social Security Act and the
   Medicare program.                                                          The RRB’s
                                                                              mission is to pay
   The RRB's mission is to pay accurate and timely benefits. During fiscal    accurate and
   year (FY) 2008, the RRB paid $10.1 billion in retirement and survivor      timely benefits.
   benefits to 598,000 beneficiaries. The RRB also paid $80 million in net
   unemployment and sickness insurance benefits to 11,000 unemployed
   and 9,000 sick railroad workers. As of the end of fiscal year 2008, the
   RRB administered the Medicare coverage of more than 493,900
   individuals. The RRB contracts with a separate carrier to process
   Medicare Part B claims for qualified Railroad Retirement beneficiaries.
   During FY 2008, the carrier paid medical insurance benefits totaling
   approximately $844 million.




       Railroad Retirement Board, Office of Inspector General             1
                      Semiannual Report to the Congress · April 1, 2009 – September 30, 2009




The Inspector
                            EXECUTIVE SUMMARY
General is
appointed by the
President with
                            Office of Inspector General
the advice and
consent of the       The Inspector General is appointed by the President with the advice
Senate.              and consent of the Senate. He serves as an independent and objective
                     voice to both the Board and the Congress. It is the Inspector General’s
                     responsibility to promote economy, efficiency, and effectiveness in the
                     RRB’s programs. To that end, the Office of Inspector General (OIG)
                     conducts audits/evaluations, management reviews, and inspections of
                     RRB programs and operations. As a product of its efforts, the OIG
                     offers recommendations for improvement to RRB management. The
                     OIG also identifies and investigates cases of waste, fraud, and abuse in
                     RRB programs. The OIG works closely with Federal prosecutors and
                     makes the appropriate referrals for criminal prosecution, civil
                     prosecution, or monetary recovery.

The OIG offers       The OIG has 50 employees assigned to three operational components:
recommendations      the immediate Office of the Inspector General; the Office of Audit; and
for improvement to   the Office of Investigations. The OIG conducts operations from several
RRB                  locations: the headquarters of the RRB in Chicago, Illinois; an
management.          investigative field office in Philadelphia, Pennsylvania; and domicile
                     investigative offices in Arlington, Virginia and San Diego, California.
                     The OIG recently added a domicile investigative office in Houston,
                     Texas. These domicile offices provide more effective and efficient
                     coordination with other Inspector General offices and traditional law
                     enforcement agencies with which the OIG works joint investigations.

                             Office of Audit
                     The Office of Audit (OA) conducts financial, performance, and
                     compliance audits and evaluations of RRB programs.

                     During this reporting period, OA completed and published two audits
OA conducts          conducted pursuant to the requirements of the Federal Information
financial,           Security Management Act of 2002 (FISMA). These audits evaluated:
performance,
and compliance          •   general and application controls over the financial management
audits and                  major application system using the methodology contained in the
evaluations of              Government Accountability Office’s Federal Information System
RRB programs.
                            Controls Audit Manual (FISCAM); and


                        Railroad Retirement Board, Office of Inspector General             2
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


       •   RRB’s Medicare major application system applying standards
           promulgated by the National Institute of Standards and
           Technology, the Government Accountability Office, and the
           Office of Management and Budget.

   Both audits disclosed areas in which the RRB needed to strengthen
   controls in its information security management program.

   OA also completed the first audit of the Railroad Medicare program
   since the enactment of the Consolidated Appropriations Act, 2008
   which lifted the 12 year prohibition on such oversight activities.
   Auditors concluded that more could be done to identify fraud and abuse
   in the Railroad Medicare program by strengthening the Benefit Integrity
   operations of the Part B carrier.

   During this semiannual reporting period, OA began work on the annual
   audit of the RRB’s financial statements pursuant to the Accountability of     OA completed
   Tax Dollars Act of 2002. The OIG has conducted the annual audit of            three audits
   agency financial statements with its own staff since 1997 when                during this
                                                                                 reporting period.
   Congressional report language specifically directed it to do so. OA
   contracts only for the assistance of the actuarial specialists necessary
   to support the OIG’s opinion on the actuarial estimates presented in the
   RRB’s statement of social insurance.

   OA also began its annual evaluation of information security pursuant to
   the requirements of FISMA. The OIG performs all work for this
   statutorily mandated evaluation with its own staff.

   OA has initiated an audit of the RRB’s Financial Interchange with the
   Social Security Administration and the Centers for Medicare and
   Medicaid Services. The OIG has retained the resources and expertise
   of a contractor to perform the evaluation of this complex statistical
   process. The RRB estimates that the Financial Interchange will
   comprise 35% to 40% of future income over the next 75 years.

   In addition, OA has continued its ongoing program of oversight to RRB
   implementation of the requirements of the American Reinvestment and
   Recovery Act of 2009.

   All audits completed during this reporting period are discussed in
   further detail on pages 5 through 7 and the full texts are available on
   our website at www.rrb.gov/oig.



       Railroad Retirement Board, Office of Inspector General                3
                  Semiannual Report to the Congress · April 1, 2009 – September 30, 2009




OI conducts             Office of Investigations
investigations
throughout the
                 The Office of Investigations (OI) focuses its efforts on identifying,
United States.
                 investigating, and presenting RRB benefit fraud cases for prosecution.
                 OI conducts investigations throughout the United States relating to the
                 fraudulent receipt of RRB disability, unemployment, sickness,
                 retirement/survivor, or Railroad Medicare benefits. OI investigates
                 railroad employers and unions when there is an indication that they
                 have submitted false reports to the RRB. OI also investigates
                 allegations regarding agency employee misconduct and threats against
                 RRB employees. Investigative efforts can result in criminal convictions,
                 civil penalties, recovery of program benefit funds, and/or administrative
                 sanctions.
Defendants
were sentenced   From April 1, 2009 through September 30, 2009, OI achieved:
to:
● 7 years in        •   40 arrests;
prison;             •   62 indictments and/or informations;
● 41 years of       •   19 convictions;
probation; and      •   17 civil judgments; and
●140 hours of
                    •   52 referrals to the Department of Justice.
community
service.
                 Defendants, in the aggregate, were sentenced to seven years in prison,
                 approximately 41 years of probation, and 140 hours of community
                 service. Based on OI investigations completed during this reporting
                 period, the RRB established receivables totaling over $2 million.

                 Representative fraud cases are discussed on pages 11 to 18.




                    Railroad Retirement Board, Office of Inspector General               4
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



          APRIL 1, 2009 - SEPTEMBER 30, 2009
          ACCOMPLISHMENTS                                                         Congress
                                                                                  established the
          Office of Audit                                                         OIG to provide
                                                                                  independent
                                                                                  oversight of the
   Congress established the OIG to provide independent oversight of the           RRB.
   RRB. Within the OIG, the mission of OA is to promote economy,
   efficiency, and effectiveness in the administration of RRB programs;
   and to detect and prevent fraud and abuse in such programs. Through
   the Inspector General, OA keeps Board Members and the Congress
   informed of current and potential problems and deficiencies in RRB
   operations. OA also tracks the status of progress towards corrective
   action.

   Brief summaries of the audits completed during this semiannual
   reporting period follow.

          Audit of the Railroad Medicare Integrity
          Program at Palmetto Government Benefits
          Administrators – September 25, 2009

   The RRB has statutory authority to contract with a separate carrier to         Auditors
   process the Medicare Part B claims of qualified Railroad Retirement            identified areas
   beneficiaries nationwide. In this capacity, Palmetto Government                for improvement
   Benefits Administrators (Palmetto), the carrier since April 2000, is           in the Medicare
                                                                                  Integrity
   responsible for program integrity. The primary goal of program integrity
                                                                                  Program.
   is to pay claims correctly and protect the Medicare Trust Fund from
   fraud, waste, and abuse.

   The objective of this audit was to identify areas for improvement in the
   Medicare Integrity Program implemented by Palmetto. OA’s review
   concluded that more could be done to identify fraud and abuse in the
   Railroad Medicare program by strengthening its Railroad Medicare
   Benefit Integrity unit.

   Auditors reported that the Railroad Medicare Benefit Integrity unit has
   very limited resources with which to perform proactive fraud
   investigations and data analysis because the unit is staffed with only a
   single full-time employee to perform all required benefit integrity



       Railroad Retirement Board, Office of Inspector General                 5
                      Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                     functions. This unit could be more effective in identifying, researching,
                     and referring potential fraud in the following areas:

                        •   identification of providers excluded from the Medicare program;
                        •   investigation of claims submitted by excluded providers;
                        •   referral of high-dollar payments and claims for investigation; and
                        •   fraud training for benefit integrity staff.

                     Auditors recommended that Palmetto management work with agency
                     officials to obtain the budget and staff resources needed to strengthen
                     the benefit integrity program. The auditors also recommended action in
                     11 additional areas including budgeting, estimating of improper
                     payments, exclusion of ineligible providers, identification and referral of
                     suspected fraud, and agency oversight of contractor activities.

                            Audit of the General and Application
                            Controls in the Financial Management Major
The OIG                     Application System – September 30, 2009
evaluates
information
security annually.   The RRB’s financial management major application includes two
                     mainframe components, the Federal Financial System and the Program
                     Accounts Receivable system, which support budget formulation and
                     execution, general ledger accounting, accounts payable, cost
                     accounting, payroll, and accounts receivable activities.

                     The Federal Information Security Management Act of 2002 (FISMA)
                     requires agencies to develop, document, and implement an
                     agency-wide information security program. The OIG has the
                     responsibility to evaluate information security annually.

                     The objective of this review was to determine the adequacy of the
                     general and application controls over the financial management major
                     application system.

                     OA’s review determined that the general and application controls over
                     entity-wide security program planning and management, data center
                     access, non-emergency systems development, and service
                     continuity/data recovery and backup procedures are adequate.




                        Railroad Retirement Board, Office of Inspector General                   6
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


   However, the general and application controls are not adequate to
   ensure:

       •   proper segregation of duties;
       •   least privilege access control;
       •   contractor account management;
       •   authorized emergency program changes; and
       •   consistent password management and implementation.

   Auditors made specific recommendations to strengthen information
   security in each area in which a deficiency was identified.

           Audit of the Railroad Retirement Board’s
           Medicare Major Application System –
           September 30, 2009                                                   Auditors
                                                                                performed a
                                                                                system-level
   The objective of this audit was to perform a system-level assessment of      assessment of
   the Medicare major application to determine if security controls were in     the Medicare
   place, operated as intended, and met the requirements established by         major
   FISMA. The security controls reviewed in detail included: access             application.
   controls; audit and accountability; identification and authentication; and
   system and information integrity.

   OA’s review of the Medicare major application determined that the
   identification and authentication, and system and information integrity
   controls were in place, operated as intended, and met the requirements
   established by FISMA. However, they found that the security controls
   over access, and controls over audit and accountability, need
   improvement.

   Specifically OA concluded that:

       •   dataset rules do not enforce least privilege;
       •   access controls that enforce least privilege need improvement;
       •   accountability over ACF2, a commercial access control software
           product, needs improvement;
       •   audit log content needs expansion; and
       •   audit log of security violations is misleading.

   Auditors offered recommendations for corrective action targeted to
   each area cited as deficient.


       Railroad Retirement Board, Office of Inspector General               7
                  Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                       Management Decisions and Implementation

                 The OIG tracks the implementation of its recommendations to RRB
Only one audit   management. Office of Management and Budget Circular No. A-50
recommendation
is pending a
                 (Revised) and the Inspector General Act Amendments of 1988 require
management       the reporting of management decisions and corrective actions for all
decision.        audit recommendations.

                                      Management Decisions
                  Requiring Management Decision on April 1, 2009                 1
                  Pending Management Decision for New
                                                                                 0
                  Recommendations
                  Management Decision on Previous Recommendations                0
                  Recommendations Pending Management Decision on
                                                                                 1
                  September 30, 2009

                 In its Fiscal Year 2008 Evaluation of Information Security at the
                 Railroad Retirement Board, OA recommended that the Bureau of
                 Information Services (BIS) develop a comprehensive plan for testing
                 and evaluation of the agency’s contractor operations. BIS has taken
                 this recommendation under advisement and is waiting for the RRB’s
                 General Counsel to verify which agency contracts should be
                 considered for certification and accreditation as information systems in
                 compliance with FISMA requirements.


                                          Corrective Action
                  Recommendations Requiring Action on April 1, 2009             157
                  Recommendations Issued During Reporting Period                44
                  Corrective Actions Completed During Reporting Period          13
                  Recommendations Rejected During Reporting Period               8
                  Final Actions Pending on September 30, 2009                   180




                    Railroad Retirement Board, Office of Inspector General                  8
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



            Office of Investigations
   OI focuses its efforts and resources on RRB benefit program fraud.
   OI's primary objective is to identify, investigate and refer for prosecution
   and monetary recovery action, cases of waste, fraud, and abuse in
   RRB programs. OI also seeks to prevent and deter program fraud by
   reporting systemic weaknesses in RRB operations and processes
   identified through investigative work. In order to maximize the impact
   of its resources, OI continues to pursue cooperative investigative
   activities in coordination with other Inspectors General and law
   enforcement agencies, such as the Federal Bureau of Investigation, the
   U.S. Secret Service, the Internal Revenue Service, and the Postal
   Inspection Service.


            Investigative Accomplishments


                  Action                      April 1, 2009 –                Fiscal Year 2009
                                            September 30, 2009

       Department of Justice                                                                                  OI investigates
                                                         52                            100                    and refers fraud
       Referrals
                                                                                                              cases for
       Indictments/Informations                          62                             78                    prosecution and
       Arrests                                           40                             43                    monetary
                                                                                                              recovery.
       Convictions                                       19                             48

       Civil Complaints                                   8                             13

       Civil Judgments                                   17                             29

       Restitution and Fines                        $935,563                      $5,167,012
       Civil Damages and
                                                     $727,380                     $1,272,830
       Penalties
       Investigative Recoveries 1                    $367,084                       $616,244

       Community Service Hours                          140                            1100


   1
    RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery
   action are expressed as investigative recoveries.




        Railroad Retirement Board, Office of Inspector General                                            9
                     Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                                   Current Caseload
During this         During this semiannual reporting period, OI reviewed 318 matters and
semiannual          opened 99 new cases.
reporting period,
OI reviewed 318
matters and                                   Investigative Caseload Data
opened 99 new
cases.               Investigative Cases Open as of April 1, 2009                      445
                     Investigative Cases Opened During Reporting Period                 99
                     Investigative Cases Closed During Reporting Period                170
                     Investigative Cases Open on September 30, 2009                    374


                    OI’s current caseload totals 374 matters, representing more than $19.3
                    million in potential fraud. The chart below reflects the distribution of OI
                    cases and the potential fraud losses by the RRB’s major program
OI’s current        areas.
caseload totals
374 matters,
representing                                              Other*
                                                         32 Cases
more than $19.3                                          $190,000
million in
potential fraud.                Medicare                                               Disability
                                                                                       169 Cases
                                59 Cases
                              $11.3 million                                           $4.7 million




                           Retirement
                            52 Cases
                           $2.5 million
                                                                    Unemployment
                                                                     & Sickness
                                                                      62 Cases
                                                                      $553,000




                    *Other case type is amalgam of various types of cases involving
                    matters such as misconduct by RRB employees, threats against
                    agency employees, false reporting by railroad employers, and others
                    that individually represent less than one percent of OI’s caseload.


                       Railroad Retirement Board, Office of Inspector General                 10
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



          REPRESENTATIVE INVESTIGATIONS
          APRIL 1, 2009 – SEPTEMBER 30, 2009                                    OI obtained 12
                                                                                convictions and
                                                                                six civil
                                                                                judgments in
          Disability Investigations                                             disability fraud
                                                                                cases.
    OI conducts fraud investigations relating to the RRB's disability
    program. Railroad workers who are awarded a disability annuity by
    the RRB are subject to work restrictions and earnings limitations.

    During this reporting period, OI obtained 12 convictions and six civil
    judgments in disability fraud cases. The defendants received
    sentences totaling five months in prison, over 31 years of probation, 40
    hours of community service and were ordered to pay over $895,000 in
    restitution, fines, and civil damages/penalties.

    Descriptions of representative cases completed during this reporting
    period follow.

          Disability Annuitant Repays More Than $12,000                         Disability fraud
                                                                                defendants
   OI initiated an investigation when a check with the Social Security          were ordered to
   Administration revealed the annuitant was receiving wages from a             pay over
   private employer while receiving RRB disability benefits. OI’s               $895,000 in
   subsequent investigation revealed that during 2004 and 2005 the              restitution, fines,
                                                                                and civil
   annuitant earned wages in excess of the allowable amount established
                                                                                damages/
   by the Railroad Retirement Act. The annuitant’s failure to report his        penalties.
   income to the RRB caused him to fraudulently receive almost $11,000
   in disability payments.

   This case was referred to the United States Attorney’s Office for the
   Western District of Pennsylvania. The annuitant entered into a
   Settlement Agreement in which he agreed to pay more than $12,000 in
   restitution and penalty. The annuitant made full restitution when he
   signed the agreement.




       Railroad Retirement Board, Office of Inspector General              11
 Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



       Annuitant Reported Self-Employment Earnings
       under Spouse’s Social Security Number

OI Special Agents investigated an RRB disability annuitant who failed
to report that he was working at a small business owned by his spouse.
Their investigation revealed that 70% of the self-employment earnings
reported to his spouse’s social security number were actually his
earnings. The annuitant’s failure to report his income to the RRB
caused him to fraudulently receive almost $101,000 in disability
payments.

This case was referred to the United States Attorney’s Office for the
District of South Carolina. The annuitant pled guilty to Making a False
Statement to receive RRB disability benefits. The annuitant was
sentenced to five years of probation and nearly $70,000 in restitution
and a special assessment. Prior to sentencing the annuitant had paid
partial restitution in the amount of $31,000.

       Sheriff’s Deputy Fraudulently Collected Nearly
       $104,000 in Disability Benefits
OI initiated this investigation of an RRB disability annuitant based on a
computer wage match with the State of Illinois that identified individuals
who may have collected RRB disability benefits on the same days they
had earnings reported to the state. OI’s subsequent investigation
revealed that during the period of January 1998 through May 2005 the
annuitant failed to report his employment as a county sheriff’s deputy.
OI also discovered that he owned and operated a restaurant, but had
not reported income from that business to the RRB. The annuitant’s
failure to report his income to the RRB caused him to fraudulently
receive nearly $104,000 in disability payments.

This case was referred to the United States Attorney’s Office for the
Northern District of Illinois. The annuitant pled guilty to Theft of
Government Funds and was sentenced to five months in prison, five
months of home confinement, and full restitution.




   Railroad Retirement Board, Office of Inspector General               12
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


          Annuitant Fails to Report Self-Employment;
          Ordered to Repay Over $64,000

   In another case, OI received information that an RRB annuitant failed to
   report self-employment income. During an interview conducted by
   Special Agents, the annuitant claimed that he was not employed by the
   business and had turned over corporate ownership to his spouse and
   their sons. The investigation by OI Special Agents determined that his
   spouse and one son were enrolled in school full-time and his other two
   sons were employed as police officers. The investigation also revealed
   that state certification was required for the particular service provided
   by the annuitant’s corporation. State records revealed the certification
   for this corporation listed only the annuitant’s name.

   This case was referred to the United States Attorney’s Office for the
   Northern District of Ohio. The annuitant pled guilty to making False
   Statements to receive RRB disability benefits and was sentenced to
   two years of probation. The annuitant made restitution over of $64,000
   to the RRB prior to sentencing.                                              OI obtained four
                                                                                convictions and
          Unemployment and Sickness Insurance                                   five civil
                                                                                judgments in UI
          Investigations                                                        and SI cases.

   Unemployment Insurance (UI) and Sickness Insurance (SI) benefit
   fraud involves individuals claiming and receiving UI or SI benefits while
   working and receiving wages, in violation of Federal law, from an
   employer. OI receives the majority of these cases from the RRB’s
   Disability, Sickness, and Unemployment Benefits Division as a result of
   information developed through state wage matching programs. The
   RRB conducts computer wage matches with various states to identify
   claimants who may have collected RRB administered unemployment or
   sickness insurance benefits on the same days they received wages
   from a private employer.

    During this reporting period, OI obtained four convictions and five civil
                                                                                UI and SI fraud
    judgments for UI and SI fraud. Defendants in these cases received, in       defendants
    the aggregate, more than three years of probation and 100 hours of          were ordered to
    community service. They were ordered to pay almost $26,000 in               pay over
    restitution and nearly $130,000 in civil damages/penalties.                 $156,000.




       Railroad Retirement Board, Office of Inspector General              13
 Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



The following are examples of UI/SI cases completed during this
reporting period.

      Fugitive Applies for Sickness Insurance Annuity
OI received information indicating that an RRB SI claimant had
previously pled guilty to insurance fraud and arson pursuant to a plea
agreement. Under the terms of his plea agreement the claimant
agreed to serve up to six years in prison. However, he failed to appear
at his sentencing and a warrant was issued for his arrest. While he
was a fugitive, the claimant applied for and was approved for RRB SI
benefits. OI coordinated with the RRB and investigators from a County
District Attorney’s Office to arrest the annuitant. He was taken into
custody and was sentenced on the fraud and arson charges.

      UI Claimant Ordered to Repay Over $7,000
OI initiated this investigation of an RRB UI claimant based upon an
agency referral. The RRB had conducted a computer wage match with
the State of Ohio. The wage match identified claimants who may have
collected RRB administered UI benefits on the same days they
received wages from a private employer.

OI determined that beginning May 2007 through January 2008 the
claimant applied for RRB UI benefits on the same days he was working
for a private employer. The claimant failed to report his work and
earnings to the RRB and fraudulently received over $7,000 in UI
benefits.

This case was referred to the United States Attorney’s Office for the
Northern District of Ohio. The United States Attorney’s Office filed an
information against the claimant for False and Fraudulent Claims. The
claimant pled guilty and was sentenced to five months of probation, 50
hours of community service, and full restitution.

      Retirement/Survivor Benefit and
      Representative Payee Investigations

The Railroad Retirement Act provides retirement/survivor benefits for
qualified railroad workers and their families. RRB retirement/survivor
benefit fraud typically involves an individual failing to report information


   Railroad Retirement Board, Office of Inspector General                14
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


    to the RRB that may disqualify the annuitant from receiving benefits. A
    second common retirement/survivor benefit fraud scenario involves the
    theft and/or fraudulent cashing of retirement benefit checks by
    someone other than the authorized RRB annuitant. OI also
    investigates representative payee cases where an individual                  OI obtained
    designated to receive RRB benefits on behalf of a RRB annuitant              three convictions
    fraudulently uses the funds for their own personal use.                      in Retirement/
                                                                                 Survivor Benefit
                                                                                 fraud cases.
    During this reporting period, OI obtained three convictions for these
    types of fraud cases. The defendants received sentences totaling
    almost seven years in prison and six years of probation. They were
    also ordered to pay almost $255,000 in restitution and fines. OI also
    had five civil judgments worth nearly $318,000 in damages and
    penalties.

    Examples of cases completed during this reporting period follow.

          Multi-Agency Task Force Investigates Individual for                    Defendants were
                                                                                 sentenced to
          Stealing Government Benefits                                           almost seven
                                                                                 years in prison
    OI investigated allegations that an unknown subject impersonated an          and six years of
    RRB beneficiary in an attempt to have the annuitant’s monthly RRB            probation.
    benefit check rerouted to the subject’s bank account. However, a
    relative notified the agency of the beneficiary’s death and the RRB was
    able to stop the transfer of RRB benefits.

    Further investigation by OI determined that other OIG offices were
    investigating similar circumstances, but the unknown subject had been
    successful in diverting payments from those federal agencies and
    departments. A multi-agency task force was formed to investigate
    these allegations. It included agents/representatives from OI, the U.S.
    Secret Service, Office of Personnel Management, Social Security
    Administration, and the Defense Criminal Investigative Service. The
    investigation, which involved the execution of multiple search warrants,
    complex financial analysis, and arrests, revealed that the target had
    misdirected approximately $750,000 in electronic funds transfers to the
    subject’s account.

    This case was referred to the United States Attorney’s Office for the
    Eastern District of Louisiana. The defendant pled guilty to Conspiracy
    to Commit Theft of Government Funds and Wire Fraud. She was
    sentenced to 78 months in prison and over $92,000 in restitution,


       Railroad Retirement Board, Office of Inspector General               15
 Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



which represented the amount recoverable under applicable statutes
of limitations.

      Annuitant’s Son Steals Almost $117,000 in RRB
      Benefits

An annuitant’s son failed to report his mother’s death to the RRB and
fraudulently collected almost $117,000 in RRB widow’s benefits. OI’s
investigation revealed that the annuitant had passed away in December
1989; however, RRB continued to issue annuity checks in her name
until January 2007. Using document analysis, Special Agents
determined that the son had forged his mother’s signature on the RRB
benefit checks and converted the annuitant’s RRB benefits for his own
personal use.

This case was referred to the United States Attorney’s Office for the
Southern District of Ohio. The subject was charged with a violation of
Theft of Government Property and was sentenced to one month in
prison, three years of supervised release, and full restitution.

      Representative Payee Fails to Report Disqualifying
      Marriage
Based upon an RRB District Office referral, OI initiated an investigation
against an individual who received RRB benefits to care for her
disabled child.

OI’s investigation revealed that she was not entitled to receive benefits
because her son had married in September 2002. OI further
discovered that the annuitant’s other son had been appointed
Representative Payee for his brother. His failure to notify the RRB of
his brother’s marriage caused his mother to fraudulently receive almost
$52,000 in RRB Child Disability Benefits and nearly $19,000 in
Surviving Divorced Mother’s Annuity payments.

This case was referred to the United States Attorney’s Office for the
Eastern District of Michigan. Both individuals were charged with Theft
of Government Funds and Failure to Report to the RRB. The mother
was convicted and sentenced to two years of probation, 180 days of
home confinement, and full restitution. The brother entered into pre-
trial diversion and agreed to six months of probation and 40 hours of
community service.


   Railroad Retirement Board, Office of Inspector General             16
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


          Disqualifying Marriage Never Terminated

    OI initiated an investigation when the RRB advised that an individual
    receiving RRB spouse retirement benefits was not entitled to those
    benefits because she had never terminated a previous marriage.

    OI’s investigation determined that the annuitant applied for and was
    approved for spouse benefits in November 2003 based on her
    marriage to a railroad employee in 1999 and her re-marriage to that
    same individual in 2003. OI also determined this annuitant was first
    married in 1985; however, she had never terminated this earlier
    marriage. During the period of February 2004 through July 2006 she
    received over $46,000 in RRB spouse benefits. Since she did not
    terminate her first marriage, she was never legally married to the RRB
    annuitant and was not entitled to benefits.

   This case was referred to the United States Attorney’s Office for the
   Northern District of Ohio. The subject was indicted on one count of
   Theft of Government Funds. She pled guilty and was sentenced to
   three years of probation and full restitution.


          Railroad Medicare Investigations
   Qualified railroad retirement beneficiaries are covered under the              OI currently has
   Medicare program the same as persons covered under the social                  59 active
                                                                                  Medicare
   security system. The RRB enrolls railroad beneficiaries for Medicare
                                                                                  investigations
   coverage and collects premiums for Part B supplemental medical                 with an
   insurance. The RRB also selects and monitors the single nationwide             estimated fraud
   Medicare Part B Carrier contract. During FY 2008, the RRB’s Medicare           loss of over
   contractor paid approximately $844 million in medical insurance                $11.3 million.
   benefits.

   The U.S. Department of Health and Human Services has stated ‘[n]ot
   only is waste, fraud and abuse taking critical resources out of our
   healthcare system, it contributes to the rising cost of health care for all
   Americans and harms the short-term and long-term solvency of these
   essential programs.” Medicare fraud consists of diverse schemes
   including billing for services not rendered, submitting charges for a
   greater level of service than was actually performed, billing for an
   entirely different service than was actually performed, billing for
   medically unnecessary services, and similar activities.



       Railroad Retirement Board, Office of Inspector General                17
                   Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                  All of OI’s active Medicare cases are being worked jointly with the OIG
                  offices of the U.S. Department of Health and Human Services, the
                  Office of Personnel Management and other agencies responsible for
                  investigating healthcare fraud. Interagency cooperation is imperative to
                  effective law enforcement. During this reporting period, six OI Special
                  Agents worked in cooperation with various other Federal and local law
                  enforcement agents as members of the Medicare Fraud Strike Force in
                  Houston, Texas. This team executed 12 search warrants and arrested
                  32 individuals indicted for various Medicare schemes. These activities
                  garnered national media attention. Media attention creates a
                  substantial deterrent by highlighting the ramifications of fraudulent
                  activities.

                  The Houston Strike Force is the fourth phase of the Department of
                  Justice and the Department of Health and Human Services’ Health
                  Care Fraud Prevention & Enforcement Action Team (HEAT). OI
                  currently has one Special Agent assigned full-time to HEAT activities in
                  Houston, Texas.

                  OI currently has 59 active Medicare investigations with an estimated
                  fraud loss of over $11.3 million and an additional 13 Medicare referrals
                  under review.

                  Civil Enforcement Results
OI achieved 17
civil judgments
with over         OI also pursues civil actions to obtain judicial orders for the recovery of
$727,000 in       funds fraudulently obtained by annuitants or claimants. These civil
damages and       actions are typically brought under the provisions of the False Claims
penalties.        Act. This statute allows the government to recover up to treble
                  damages as well as $5,500 to $11,000 for each false claim submitted.
                  During this semiannual period, a total of 17 civil judgments were
                  entered by U.S. District Courts for RRB fraud cases totaling over
                  $727,000 in damages and penalties.

                  Some of these civil actions are pursued under the Department of
                  Justice’s Affirmative Civil Enforcement (ACE) program which provides
                  an efficient means to address fraud against RRB programs, particularly
                  where the fraud losses are below the financial guidelines for criminal
                  prosecution. ACE is an effective way to return fraud losses to the
                  RRB’s trust funds and it also creates a deterrent against future fraud.




                     Railroad Retirement Board, Office of Inspector General               18
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


          Hotline Contacts
                                                                               The OIG
    The OIG established its Hotline to receive complaints concerning           received 2,089
    suspected fraud, waste, and abuse in RRB programs and operations.          Hotline contacts
    The Hotline provides an open line of communication for individuals to      during this
    report suspected criminal activity and mismanagement/waste of RRB          reporting period.
    funds.

    The Hotline received 2,089 contacts during this reporting period. This
    represents almost a 500% increase from the previous reporting period.
    The increase is attributed to RRB annuitants and railroad workers
    contacting the OIG regarding additional benefits provided by the
    American Recovery and Reinvestment Act of 2009. The OIG referred
    these inquiries to the agency. The following table summarizes Hotline
    referrals for the period April 1, 2009 through September 30, 2009 and
    for FY 2009.                                                               Hotline contacts
                                                                               increased almost
                                                                               500% during the
                                        April 1, 2009 –                        second half of
       Referral or Other Activity                               Fiscal Year
                                      September 30, 2009                       FY 2009.
                                                                   2009
      RRB District or Regional
                                              1336                 1554
      Office
      Other (Hang Ups,
      Misdirected Calls,                       618
                                                                   719
      Disconnections, etc.)
      Calls with Insufficient
      Information to Make                      46                   99
      Appropriate Referrals
      Office of Investigations                 61                  103
      Other Federal Agencies                   17                   24
      Disposition Not Yet
      Determined, Additional
                                                7                   11
      Information is Being
      Obtained
      RRB Bureaus                               4                   11
      Railroad Medicare Carrier/
      Durable Medical Equipment                 0                   9
      Carrier
      Referred to a Railroad                    0                   1



       Railroad Retirement Board, Office of Inspector General             19
                Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                      OTHER OVERSIGHT ACTIVITIES
The OIG
provides
Recovery Act          American Recovery and Reinvestment
oversight.
                      Act of 2009
               During this semiannual period, the OIG continued its ongoing effort to
               provide a preventive/proactive program of oversight tailored to fit the
               RRB's responsibilities under the American Recovery and Reinvestment
               Act of 2009 (Recovery Act).

               The Recovery Act, signed into law on February 17, 2009, established
               general requirements for management and reporting which are
               applicable to all Federal agencies and appropriates funding from the
               general fund of the U.S. Treasury to pay benefits to railroad workers
               and retirees as follows:

                  •   A one-time $250 payment to most individuals who receive
                      benefits under the Railroad Retirement Act, totaling
                      approximately $135 million;
                  •   13 additional weeks of unemployment benefits for certain
                      railroad workers who exhaust their rights to the benefits
                      normally provided under the Railroad Retirement
                      Unemployment Insurance Act, not to exceed $20 million; and
                  •   $1,480,000 to fund the additional administrative costs
                      anticipated in connection with payment of additional benefits.

               The Recovery Act provided additional funding to the RRB to administer
               these benefit payments, however, it did not provide any supplemental
               funding for oversight activity by the OIG.

               During this reporting period, the OIG monitored agency implementation
               efforts and conducted testing for payments funded by the Recovery Act
               in accordance with its original oversight plan, published in March 2009.

               The OIG also contributed to the national effort to ensure a transparent
               Recovery Act process by preparing a Recovery Act work plan and
               monthly progress reports in formats developed by the Recovery
               Accountability and Transparency Board. The work plan and monthly
               reports are published on the Recovery.gov website and are also
               available on the RRB’s Recovery Act Information web page.


                  Railroad Retirement Board, Office of Inspector General               20
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


   Additionally, the OIG is investigating a fraud matter in which it identified
   a small portion of the fraud loss as the $250 Recovery Act single
   payment to a railroad retirement annuitant. The OIG has reviewed 17
   referrals from the agency involving fraudulent receipt of extended
   unemployment benefits which are also funded by the Recovery Act.

             Occupational Disability Program
                                                                                                                 The national
   The occupational disability annuity is a unique benefit in that it is a                                       spotlight was
   Federal program managed by a government agency serving workers in                                             turned on the
   a single industry. The threshold for qualification, which is lower than                                       RRB’s
   the standard for determining total and permanent disability under the                                         occupational
   Social Security Act, makes the occupational disability program                                                disability
   susceptible to fraud and abuse.                                                                               program in
                                                                                                                 September
                                                                                                                 2008.
   The national spotlight was turned on the RRB’s occupational disability
   program in September 2008 when the New York Times reported that
   nearly every career employee of the Long Island Railroad (LIRR)
   applies for and receives disability benefits soon after retirement. 2 In
   September 2009, the Government Accountability Office (GAO) reported
   that in FY 2007 “LIRR workers applied for occupational disability
   benefits at a rate 12 times higher than workers from other commuter
   railroads” and that “the RRB approved the claims of all workers at the
   same rate – near 100%.” 3

   In October 2008, the RRB adopted Board Order 08-63 which described
   a five-point plan for greater oversight of the occupational disability
   claims of LIRR employees. As part of its five-point plan, the RRB is
   currently utilizing secondary medical screening on all occupational
   disability applicants received from LIRR applicants.

   GAO reported that the RRB had approved nearly all of the occupational
   disability claims decided under the plan as of April 30, 2009. The
   agency has also created a new position to provide quality control
   oversight to the occupational disability program nationwide, not just the
   LIRR. Subsequently, the GAO has initiated a second audit in response
   to a Congressional request.



   2
    Bogdanich, Walt. “A Disability Epidemic Among a Railroad’s Retirees.” New York Times, 20 Sept. 2008.
   3
    United States Government Accountability Office, Review of Commuter Railroad Occupational Disability Claims
   Reveals Potential Program Vulnerabilities, GAO-09-821R (Washington, D.C.: Sept. 9, 2009).



        Railroad Retirement Board, Office of Inspector General                                             21
                       Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                      In connection with the occupational disability program, the OIG has
The OIG has           made the following recommendations to the RRB’s Board members:
made several
recommendations
to the RRB Board         •   All future occupational disability applicants should be sent for a
members                      secondary medical screening prior to adjudication.
regarding the
occupational             •   The RRB should require the applicant’s immediate supervisor to
disability program.
                             complete and certify all RRB Forms G-251a or G-251b. These
                             forms are used by the RRB to request information from railroad
                             employers regarding job duties performed by applicants;
                             however, in a large percentage of cases the employers fail to
                             return the forms or provide the requested information.

                         •   The RRB should amend current disability annuitant reminder
                             forms to include an annual questionnaire requiring a certified
                             response from all disability annuitants. If the disability annuitant
                             fails to return the signed certification form within a reasonable
                             timeframe, then their disability annuity should be suspended.

                      The implementation of these recommendations would provide disability
                      examiners with additional information to consider in their adjudication
                      process, resulting in better supported decisions.

                             OTHER ACCOMPLISHMENTS AND
                             OUTREACH ACTIVITIES
  An OI Special
  Agent received
  an award from              Accomplishments
  the United
  States
  Attorney’s          During this reporting period, a Special Agent, along with other task
  Office for the      force team members from various other Federal law enforcement
  Southern            agencies, received the Outstanding Prosecution Award from the United
  District of         States Attorney’s Office for the Southern District of Illinois. The annual
  Illinois.           awards ceremony recognizes exemplary performances by Federal law
                      enforcement personnel. This award was in connection with the
                      successful prosecution of an ambulance company. The details of this
                      case were discussed in our October 1, 2008 to March 31, 2009
                      Semiannual Report to the Congress.




                         Railroad Retirement Board, Office of Inspector General                22
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


          Outreach
                                                                                 The Inspector
   In addition to audit and investigative activities, OIG staff members          General made a
   perform outreach as a means to further the office’s mission. The              presentation to
   following are examples of outreach activities conducted during this           students
                                                                                 majoring in
   reporting period.
                                                                                 Government
                                                                                 Oversight and
   The Inspector General made a presentation to students majoring in             Inspection at
   Government Oversight and Inspection at John Jay College of Criminal           John Jay
   Justice in New York. His presentation focused on government auditing          College of
   standards and issues pertinent to the Inspector General community.            Criminal Justice
                                                                                 in New York.
   The Assistant Inspector General for Audit gave a presentation on the
   Railroad Retirement Program to the Chicago Chapter of the
   Association of Government Accountants.

   OI Special Agents conducted fraud awareness training for newly hired
   agency Contact Representatives. Agency Contact Representatives
   have direct interaction with RRB beneficiaries and provide the OIG with
   an invaluable source of information and referrals.

   The Assistant Inspector General for Investigations addressed railroad
   industry representatives at the National Rail Employer Training
   Seminar. His presentation focused on the OIG’s investigative mission.

   Chicago based OI staff members attended a meeting hosted by the
   U.S. Attorney’s Office for the Northern District of Illinois concerning the
   Department of Justice and the Department of Health and Human
   Services’ joint Health Care Fraud Prevention & Enforcement Action
   Team (HEAT) national project.

   Additionally, OI staff participated in a variety of Medicare related
   meetings including several task forces. These task forces provide an
   open forum for health care fraud related communications and foster a
   team approach to health care fraud investigations. Members of the
   various task forces include representatives from: the Department of
   Justice; the Centers for Medicare and Medicaid Services; the
   Department of Health and Human Services, Office of Inspector
   General; the Office of Personnel Management, Office of Inspector
   General; the Federal Bureau of Investigations; various State Police
   agencies; various Medicaid Fraud Control Units; and Medicare
   Program Safeguard Contractors. Since Railroad Medicare is a national


       Railroad Retirement Board, Office of Inspector General               23
                   Semiannual Report to the Congress · April 1, 2009 – September 30, 2009



                  program, members of the OI staff attend task forces in several judicial
                  districts. Participation in Task Force meetings allows the Special
                  Agents to develop the necessary contacts and information to ensure
                  that Railroad Medicare fraud losses will be included in any cases. They
                  also provide an opportunity for the OI Special Agents to become
                  familiar with the most recent fraud schemes.

                        OPERATIONAL ISSUES
                  The two operational issues addressed, involve areas which impact the
                  OIG’s ability to effectively carryout its oversight role. These issues
                  would have to be remedied with legislative change.
The OIG should
be allowed to           Reimbursement to the Agency
negotiate
support costs
with the RRB.     Current appropriations law requires the OIG to reimburse the RRB for
                  indirect costs that include office space, equipment, communications,
                  supplies, maintenance, and administrative services. This process
                  requires the use of agency and OIG resources for reconciliation and
                  accounting that could be better utilized for improving agency
                  operations. The OIG is the only Federal Office of Inspector General
                  that cannot negotiate a service level agreement with its parent agency.
                  Removal of the current language would permit negotiations between
                  the RRB and the OIG for a more efficient way to address the issue of
                  support costs.

The NRRIT lacks         National Railroad Investment Trust
adequate
oversight.        The National Railroad Retirement Investment Trust (NRRIT) was
                  established by the Railroad Retirement and Survivors’ Improvement Act
                  of 2001 (RRSIA) to manage and invest Railroad Retirement assets. As
                  of June 30, 2009, the RRB’s investments in the NRRIT were valued at
                  approximately $22.4 billion.

                  Although the Trust is a tax-exempt entity independent of the Federal
                  government, the RRSIA requires that the Trust report to the RRB. This
                  office has previously expressed concerns about the RRB’s passive
                  relationship with the NRRIT and has identified the RRB’s oversight in
                  this area as a critical issue. However, the RRSIA does not provide the
                  OIG with oversight authority to conduct audits and investigations of the
                  NRRIT. This office believes that independent oversight of the Trust’s


                     Railroad Retirement Board, Office of Inspector General             24
Semiannual Report to the Congress · April 1, 2009 – September 30, 2009


   operations is necessary to ensure that sufficient reporting mechanisms
   are in place and to ensure that the Trustees are fulfilling their fiduciary
   responsibilities.


          LEGISLATIVE & REGULATORY REVIEW
    The Inspector General Act requires the Inspector General to review
    existing and proposed legislation and regulations relating to the
    programs and operations of the agency. The agency neither proposed
    nor finalized any legislation or regulations during this reporting period.

    During this reporting period, the Inspector General (IG) sent
    correspondence to Senator Mel Martinez, the Attorney General, the
    Federal Chief Information Officer, and the Secretary of Health and
    Human Services voicing support for real-time analysis of Medicare
    claims data as proposed in Senator Martinez’ pending legislation
    entitled Seniors and Taxpayers Obligation Protection Act of 2009
    (S. 975, 2009). The current Medicare fraud detection system of “pay
    and chase” is antiquated and the proposed legislation would provide a
    more effective and efficient means to identify fraudulent claims before
    payment is issued; thereby, safeguarding the Medicare trust funds and
    saving taxpayers’ money. The claims payment process for the
    Railroad Medicare program, because of its national scope, provides an
    ideal platform on which such real-time fraud detection technology
    could be tested. The IG has suggested that Senator Martinez amend
    S. 975 to specifically identify the Railroad Medicare program to pilot
    this technology.




       Railroad Retirement Board, Office of Inspector General               25
 Semiannual Report to the Congress · April 1, 2009 – September 30, 2009

APPENDICES

(A) Office of Inspector General Reports and Other Publicly
Available Documents Issued                                        27

(B) Audit Reports with Questioned Costs or with
Recommendations that Funds Be Put to Better Use                   28

(C) Report on Receivables, Waivers and Recoveries
      Office of Investigations                                    29
      Office of Audit                                             30

(D) Significant Matters                                           31

(E) RRB Management Reports                                        32

(F) Reporting Requirements                                        38

(G) Acronyms                                                      39

(H) Legal Citations                                               40




   Railroad Retirement Board, Office of Inspector General         26
APPENDIX A
OFFICE OF INSPECTOR GENERAL REPORTS
AND OTHER PUBLICLY AVAILABLE
DOCUMENTS ISSUED

• Audit of the Railroad Medicare Integrity Program at Palmetto
Government Benefits Administrators, September 25, 2009

• Audit of the General and Application Controls in the Financial
Management Major Application System, September 30, 2009

• Audit of the Railroad Retirement Board’s Medicare Major
Application System, September 30, 2009

All audits and other publicly available documents are available on our
website at www.rrb.gov/oig.




Railroad Retirement Board, Office of Inspector General              27
APPENDIX B
AUDIT REPORTS WITH QUESTIONED COSTS OR WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                 Audit Reports    Amount of     Amount of
                                                with Questioned   Questioned   Unsupported
                                                     Costs          Costs         Costs
   A. For which no management decision had
   been made by April 1, 2009
                                                      0                  0         0
   B. Which were issued from April 1, 2009
   through September 30, 2009
                                                      0                  0         0
   Subtotal (A + B)                                   0                  0         0
   C. For which a management decision was
   made between April 1, 2009 through                 0                  0         0
   September 30, 2009
   (i) dollar value of disallowed costs               0                  0         0
   (ii) dollar value of costs not disallowed          0                  0         0
   D. For which no management decision had
   been made by September 30, 2009
                                                      0                  0         0
   E. Report for which no management decision
   was made within six months of issuance
                                                      0                  0         0



                                                             Audit Reports With
                                                             Recommendations       Dollar
                                                            that Funds Be Put to   Value
                                                                  Better Use
   A. For which no management decision had been made by
   April 1, 2009
                                                                     0                 0
   B. Which were issued from April 1, 2009 through
   September 30, 2009
                                                                     0                 0
   C. Subtotal (A + B)
                                                                     0                 0
   (i) dollar value of disallowed costs
                                                                     0                 0
   (ii) dollar value of costs not disallowed
                                                                     0                 0
   D. For which no management decision had been made by
   September 30, 2009
                                                                     0                 0
   E. Report for which no management decision was made
   within six months of issuance
                                                                     0                 0




Railroad Retirement Board, Office of Inspector General                                       28
APPENDIX C
REPORT ON RECEIVABLES, WAIVERS, AND RECOVERIES


The FY 1999 appropriations language for OIG requires the reporting of additional information
concerning actual collections, offsets, and funds put to better use achieved as a result of
Inspector General activities.


OFFICE OF INVESTIGATIONS
Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:



                                                 Amount
                          Fiscal Year
                                                Recovered
                             1999                   $ 855,655
                             2000                   $1,038,134
                             2001                   $ 990,356
                             2002                   $ 785,843
                             2003                   $ 947,876
                             2004                   $ 646,273
                             2005                   $ 844,183
                             2006                   $1,281,680
                             2007                   $1,347,049
                             2008                   $1,389,489
                             2009                   $1,097,227




Railroad Retirement Board, Office of Inspector General                                       29
APPENDIX C - CONTINUED



                                          OFFICE OF AUDIT
                          Funds to be       Funds
                                                          Receivables               Recoveries
               Report     put to better    Agreed by
                                                          Established    Waivers     to Date 1
                               use        Management
                  99-03        $50,850          $50,850        $50,850    $50,490         $360
                  99-14        $83,000          $83,000        $34,423                  $30,584
                  99-16    $48,000,000      $48,000,000                             $14,800,000
                  99-17    $11,000,000      $11,000,000                              $1,604,545
                  00-16       $235,000         $235,000                               $253,846
                  04-06       $821,000         $821,000       $604,429     $5,564     $629,688
                  04-10       $400,000         $400,000                               $761,151
                  05-03     $1,800,000       $1,800,000     $4,618,033 $286,474      $1,587,672
                  05-06        $10,000          $10,000                                 $42,915
                  05-07     $1,070,000       $1,070,000        $49,943                  $49,394
                  05-10     $2,600,000       $2,600,000                  $311,000
                  06-04       $257,000         $257,000
                  06-05          $2,100          $2,100
                  06-06       $200,000         $200,000        $13,712                  $20,369
                  09-02       $600,000         $600,000                               $214,417

1
    Both overpayments and underpayments are included in this column.




Railroad Retirement Board, Office of Inspector General                                            30
APPENDIX D
SIGNIFICANT MATTERS

The OIG has identified deficiencies in controls over financial reporting and information security
as significant matters. A summary of the issues and related recommendations for corrective
action follow.
                                       Financial Reporting

The OIG previously identified internal control over financial reporting as a material weakness.
As a result, financial accounting controls cannot be relied upon to ensure that material errors
will be detected to prevent misstatements in financial reporting.

Although agency managers are working to strengthen controls, management action in
response to the following OIG recommendations had either not been completed as of the end
of the current semiannual reporting period or had not been in place long enough to permit
evaluation.

   •   Compliance with requirements                   February 9, 2007     Report:   #07-01, #11
   •   Report preparation                             March 6, 2008        Report:   #08-01, #9
   •   Transaction documentation                      March 6, 2008        Report:   #08-01, #11
   •   Journal voucher preparation and recording      March 24, 2009       Report:   #09-02, #2, #3, #4


                                      Information Security
The OIG previously evaluated information security pursuant to the provisions of the Federal
Information Security Management Act (FISMA) and concluded that the RRB has not yet
achieved an effective FISMA-compliant security program.

Although agency managers are working to strengthen controls, management action in
response to the following OIG recommendations had either not been completed as of the end
of the current semiannual reporting period or had not been in place long enough to permit
evaluation.

   • Access controls                                  February 5, 2002     Report:   #02-04, #13, 20, 21
                                                      September 7, 2004    Report:   #04-08, #1
                                                      June 7, 2005         Report:   DSD LAN, #7
                                                      June 7, 2005         Report:   DSD Web #16
                                                      July 14, 2005        Report:   #05-08, #10
                                                      September 27, 2007   Report:   #07-08, #1
   • Implement an effective risk assessment process   September 30, 2008   Report:   #08-05, #2


   • Implement a testing and evaluation program       February 5, 2002     Report: #02-04, #3
                                                      December 27, 2002    Report: #03-02, #1, #2, #3, #4
                                                      September 27, 2007   Report: #07-08, #2

Railroad Retirement Board, Office of Inspector General                                                     31
APPENDIX E – RRB MANAGEMENT REPORTS
THIS APPENDIX WAS PREPARED BY RRB MANAGEMENT


                        MANAGEMENT REPORT ON FINAL ACTION
                         ON AUDITS WITH DISALLOWED COSTS

FOR THE 6-MONTH PERIOD ENDING                                             Number of                      Disallowed
SEPTEMBER 30, 2009                                                       audit reports                      costs

A.   Audit reports, with management decisions, on
     which final action had not been taken at the                               1                         $ 2,8351
     beginning of the period.

B.   Audit reports on which management decisions
     were made during the period.                                               0                           $0

C.   Total audit reports pending final action during
     the period. (A + B)                                                        1                         $ 2,835

D.   Audit reports on which final action was taken
     during the period.

     1.    Recoveries

           (a) Collections and offsets                                          0                           $0

           (b) Property                                                         0                           $0

           (c) Other                                                            0                           $0

     2.    Recovery Waived                                                      1                         $ 2,835

     3.    Total of 1 and 2                                                     1                         $ 2,835

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                       0                           $0




           1.    Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




Railroad Retirement Board, Office of Inspector General                                                                32
      APPENDIX E – CONTINUED
              MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
          WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
           FOR THE 6-MONTH PERIOD ENDING SEPTEMBER 30, 2009

                                                                        Number of                  Funds to be put
                                                                       audit reports                to better use
A.   Audit reports, with management decisions, on
     which final action had not been taken at the
     beginning of the period.                                                 5                     $3,672,1001

B.   Audit reports on which management decisions
     were made during the period.                                             0                          $0

C.   Total audit reports pending final action during
     the period. (A + B)                                                      5                      $3,672,100

D.   Audit reports on which final action was taken
     during the period.

     1.    Value of recommendations implemented
           (completed)                                                        1                     $1,070,0002

     2.    Value of recommendations that
           management concluded should not or
           could not be implemented (completed)                               0                          $0

     3.    Total of 1 and 2                                                   1                      $1,070,000

E.   Audit reports needing final action at the end of
     the period (C - D.3)                                                     4                      $2,602,100



            1.   Comprised of the following amounts: $1,800,000 from Audit Report 05-03,
                 “Evaluation of the RRB’s Processing of Disability Earnings Cases,” $1,070,000
                 from Audit Report 05-07, “Evaluation of Survivor Annuity Work Deductions at the
                 Railroad Retirement Board,” $2,100 from Audit Report 06-05, “Review of
                 Compliance with Provisions of the Railroad Retirement Act Governing the Initial
                 Award of Benefits,” $200,000 from Audit Report 06-06, “Review of the
                 Termination and Suspension of Benefits Paid Under the Railroad Retirement
                 Act,” and $600,000 from Audit Report 09-02, “Fiscal Year 2008 Financial
                 Statement Audit Letter to Management.”
            2.   Audit Report 05-07, “Evaluation of Survivor Annuity Work Deductions at the
                 Railroad Retirement Board.”




      Railroad Retirement Board, Office of Inspector General                                 33
        APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2009

                                                     Disallowed Funds to be put
Report                                     Date         costs    to better use       Reason action not completed
Information Systems Security (INFOSEC)    6/28/00      NONE         NONE        The agency has upgraded its security
Report                                                                          capabilities and hopes to close the last
                                                                                open recommendation in FY10.

Fiscal Year 2000 Financial Statement      2/23/01      NONE           NONE       While help desk procedures have been
Audit (01-03)                                                                    upgraded, the Bureau of Information
                                                                                 Services is still developing reports to
                                                                                 close the last open recommendation.

Review of Information Security at the      2/5/02      NONE           NONE       Information Services has closed 24
Railroad Retirement Board (02-04)                                                recommendations and hopes to close
                                                                                 the remaining 4 in FY10.

Evaluation of the Self-Assessment         12/27/02     NONE           NONE       Information Services has completed
Process for Information System Security                                          one certification and accreditation
(03-02)                                                                          review with contractor support and
                                                                                 scheduled them for other major
                                                                                 systems in FY10.

Inspection of Unverified Records in the   3/20/03      NONE           NONE       Programs reviewed all 20,000 records
RRB’s Employment Data Maintenance                                                and are using a recently implemented
System (03-06)                                                                   tracking system to close the last one
                                                                                 recommendation in FY10.

Review of the Systems Development Life     9/8/03      NONE           NONE       Information Services is using system
Cycle for End-User Computing (03-10)                                             and procedural changes to address
                                                                                 and close the remaining item in FY10.

Review of Mainframe Access Controls at     9/7/04      NONE           NONE       Information Services developed an
the Application Level – RRB-Developed                                            alternative approach. Documentation
Applications Controlled by ACF2 and                                              submitted to OIG for review on last
IDMS (04-08)                                                                     recommendation.

Fiscal Year 2004 Evaluation of Information 9/30/04     NONE           NONE
                                                                                 Documentation submitted to OIG for
Security at the Railroad Retirement Board
                                                                                 review on last recommendation.
(04-11)

Review of RRB Compliance with Federal     12/6/04      NONE           NONE       Information Services completed an
Laws and Regulations on Competitive                                              initial feasibility study of sourcing
Sourcing (05-02)                                                                 information technology activities but
                                                                                 continues to investigate alternate
                                                                                 approaches and use contractor
                                                                                 support.

Evaluation of the RRB’s Processing of     2/11/05      NONE        $1,800,000    A review of almost 17,000 cases from
Disability Earnings Cases (05-03)                                                2001 indicated most did not require
                                                                                 adjustment. Remaining 5 cases
                                                                                 targeted for completion in FY10.




        Railroad Retirement Board, Office of Inspector General                             34
         APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2009

                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use         Reason action not completed

Review of Internal Control Over the           5/5/05      NONE         NONE          The Chief Actuary has developed a
Actuarial Projection Process (05-04)                                                 workforce development plan.
                                                                                     Documentation submitted to OIG for
                                                                                     review on last recommendation.

Review of Customer Service Performance        5/17/05     NONE         NONE          System changes being implemented
Measures for Timeliness of Initial Railroad                                          should address the three remaining
Retirement Annuity Payments (05-05)                                                  open recommendations in FY11.

Review of LAN, LAN Security Scan and          6/7/05      NONE         NONE          These contractor-prepared confidential
Web-based Applications (DSD)                                                         reports contained 45
                                                                                     recommendations, with two-thirds
                                                                                     closed thus far.

Review of Access Controls in the End-         7/18/05     NONE         NONE          Information Services has closed 12 of
User Computing General Support System                                                15 recommendations in this
(05-08)                                                                              confidential report. Documentation
                                                                                     submitted to OIG for review on two
                                                                                     recommendations and the remaining
                                                                                     one is targeted for completion in FY10.

Fiscal Year 2005 Evaluation of Information 9/28/05        NONE         NONE          Information Services developed
Security at the Railroad Retirement Board                                            policies and procedures. Submitted
(05-11)                                                                              documentation to OIG for review and
                                                                                     the remaining one targeted for
                                                                                     completion in FY10.

Accuracy and Reliability of GPRA              1/30/06     NONE         NONE          Programs have closed three of the
Performance Measures: Timeliness of                                                  seven recommendations. Submitted
Non-Disability Survivor Annuity Payments                                             documentation for two to OIG for
(06-03)                                                                              review and the remaining two targeted
                                                                                     for completion in FY10.

Review of Compliance with the Provisions      4/12/06     NONE         $2,100        Programs staff closed four of the five
of the Railroad Retirement Act Governing                                             recommendations. The remaining one
the Initial Award of Benefits (06-05)                                                is being reevaluated in light of ongoing
                                                                                     systems development and data
                                                                                     optimization projects.

Review of the Termination and                 5/24/06     NONE        $200,000       Programming work on a referral system
Suspension of Benefits Paid Under the                                                is pending that should close out the
Railroad Retirement Act (06-06)                                                      remaining open recommendation.

Review of Incident Handling and Reporting 8/24/06         NONE         NONE          Review of controls needed before draft
at the Railroad Retirement Board (06-09)                                             completed. Information Services
                                                                                     implemented two recommendations,
                                                                                     with the remaining slated for
                                                                                     completion in FY10.



         Railroad Retirement Board, Office of Inspector General                                35
        APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2009

                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use        Reason action not completed
Fiscal Year 2006 Financial Statement          2/9/07      NONE         NONE        The agency has closed 19 of the 20
Audit (07-01)                                                                      recommendations, with action on the
                                                                                   final one to be verified as part of the
                                                                                   FY08 financial statement audit.
                                                                                   Submitted documentation to OIG for
                                                                                   review.

Audit of the DAISY/CHICO Component            3/9/07      NONE           NONE        Submitted documentation to OIG for
Application of the RRA Benefit Payment                                               review on two of the remaining three
Major Application System (07-02)                                                     open recommendations that required
                                                                                     programming changes, with the last
                                                                                     one dependent on cooperation with
                                                                                     another agency on Medicare premium
                                                                                     collection.

Audit of the State Wage Match Data            3/28/07     NONE           NONE        Coordination required with outside
Transmission Controls (07-04)                                                        agencies. Programs plans to complete
                                                                                     action to address the two remaining
                                                                                     open recommendations in FY10.

Evaluation of the Railroad Retirement         7/30/07     NONE           NONE        New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                      funding and resources were needed.
                                                                                     Of the 15 recommendation, 6 have
                                                                                     been closed with the remainder
                                                                                     targeted for completion during FY10.

Audit of Federal Income Taxes Withheld        7/30/07     NONE           NONE        Coordination required with another org.
from Railroad Retirement Annuities (07-                                              Three of the six recommendations
07)                                                                                  have been closed, with the rest
                                                                                     targeted for completion in FY10.

Fiscal Year 2007 Evaluation of Information 9/27/07        NONE           NONE        Policy and procedures still being
Security at the Railroad Retirement Board                                            developed. One of the eight
(07-08)                                                                              recommendations has been closed
                                                                                     with the rest targeted for completion in
                                                                                     FY10.

Audit of Controls to Safeguard Sensitive      9/27/07     NONE           NONE        Coordination required with outside
Personally Identifiable Information (07-09)                                          contractor on one recommendation.
                                                                                     Documentation submitted to OIG for
                                                                                     review on two recommendations and
                                                                                     work plans are still being developed for
                                                                                     the other recommendations. Of the 22
                                                                                     recommendations, 5 have been
                                                                                     implemented with work on most of the
                                                                                     remaining ones to be finished in FY10.




        Railroad Retirement Board, Office of Inspector General                                 36
        APPENDIX E – CONTINUED
                   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
                     OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                               AS OF SEPTEMBER 30, 2009

                                                        Disallowed Funds to be put
Report                                         Date        costs    to better use        Reason action not completed
Fiscal Year 2007 Financial Statement          3/6/08      NONE         NONE        Documentation submitted to OIG for
Audit Letter to Management (08-01)                                                 review on one recommendation, OIG
                                                                                   will evaluate implementation on two
                                                                                   recommendations during the Financial
                                                                                   Statement Audit and additional
                                                                                   changes were required on the last
                                                                                   recommendation. Of the 25
                                                                                   recommendations, 21 have been
                                                                                   implemented with work on the
                                                                                   remaining ones to be finished in FY10.

Implementation of Selected Requirements 05/14/08          NONE          NONE       Coordination required with outside
for Gov’t Charge Card Program (08-02)                                              contractor. Of the 5 recommendations,
                                                                                   4 recommendations have been
                                                                                   implemented with work on the
                                                                                   remaining one to be finished in FY10.

Evaluation of Information Security for the   09/26/08     NONE          NONE       Documentation submitted to OIG for
RRB’s Financial Interchange Major                                                  review on one recommendation and
Application – Abstract (08-03)                                                     work continues on others. Of the 11
                                                                                   recommendations, 1 has been
                                                                                   implemented with work on the
                                                                                   remaining ones to be finished in 2010.

Evaluation of the RRB’s Medicare             09/26/08     NONE          NONE       Documentation submitted to OIG for
Contractor’s Information Security (08-04)                                          review on these 2 recommendations
                                                                                   which is scheduled to be finished in
                                                                                   FY10.

Fiscal Year 2008 Evaluation of Information 09/26/08       NONE          NONE       Coordination required with outside
Security at the RRB (08-05)                                                        contractor on 1 recommendation,
                                                                                   documentation submitted to OIG for
                                                                                   review on another recommendation
                                                                                   and coordination is needed with
                                                                                   another org. Of the 8
                                                                                   recommendations, 1 recommendation
                                                                                   has been implemented with work on
                                                                                   the remaining ones to be finished in
                                                                                   FY10.




        Railroad Retirement Board, Office of Inspector General                               37
APPENDIX F
REPORTING REQUIREMENTS

Act Reference       Inspector General Reporting Requirements                 Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                        25
Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies                 31
Section 5(a) (2)    Recommendations With Respect to Significant                    31
                    Problems, Abuses, and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet                      31
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities                  4, 9
Section 5(a) (5)    Instances Where Information Was Refused                     None
Section 5(a) (6)    List of Audit Reports                                         27
Section 5(a) (7)    Summary of Each Significant Report                          5–7
Section 5(a) (8)    Statistical Tables on Management Decisions on                 28
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on                  28
                    Recommendations That Funds Be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                       8
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant             None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management                   None
                    Decisions With Which the Inspector General
                    Disagrees



Act Reference       Management Reporting Requirements                          Page(s)
Section 5(b) (1)    Comments Deemed Appropriate                              Transmittal
                                                                                  Letter
Section 5(b) (2)    Statistical Table on Final Action on Disallowed                  32
                    Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds to                33
                    Better Use
Section 5(b) (4)    Statement on Audit Reports With Final Action               34 – 37
                    Pending




Railroad Retirement Board, Office of Inspector General                  38
APPENDIX G
ACRONYMS

Acronym        Explanation
ACE            Affirmative Civil Enforcement
BIS            Bureau of Information Services
FISCAM         Federal Information System Controls Audit Manual
FISMA          Federal Information Security Management Act of 2002
FY             Fiscal Year
GAO            Government Accountability Office
HEAT           Health Care Fraud Prevention & Enforcement Action
               Team
IG             Inspector General
LIRR           Long Island Rail Road
NRRIT          National Railroad Retirement Investment Trust
OA             United States Railroad Retirement Board, Office of
               Inspector General – Office of Audit
OI             United States Railroad Retirement Board, Office of
               Inspector General – Office of Investigations
OIG            United States Railroad Retirement Board, Office of
               Inspector General
RRB            Railroad Retirement Board
RRSIA          Railroad Retirement and Survivors’ Improvement Act
               of 2001
SI             Sickness Insurance
UI             Unemployment Insurance




Railroad Retirement Board, Office of Inspector General          39
APPENDIX H
LEGAL
CITATIONS


Federal:
Accountability of Tax Dollars Act of 2002 – P.L. 107-289

American Recovery and Reinvestment Act of 2009 – P.L. 111-5

Consolidated Appropriations Act, 2008 – P.L. 110-161

Conspiracy to Commit Theft of Government Funds – 18 U.S.C. § 641

Failure to Report to the RRB – 45 U.S.C. § 231l

False and Fraudulent Claims – 18 U.S.C. § 287

False Claims Act – 31 U.S.C. §§ 3729 - 3733

False Statements – 18 U.S.C. § 1001 et. seq.

Federal Information Security Management Act of 2002 – 44 U.S.C.
§ 3531, et. seq.

Inspector General Act of 1978, as amended – 5 U.S.C. App. 3

Railroad Retirement Act – 45 U.S.C. § 231, et. seq.

Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.

Railroad Retirement and Survivors’ Improvement Act of 2001 –
45 U.S.C. § 231n(j)

Seniors and Taxpayers Obligation Protection Act of 2009 – S. 975,
111th Cong., 1st Sess. (2009)

Social Security Act – 42 U.S.C. § Ch. 7

Theft of Public Money/Government Funds/Government Property –
18 U.S.C. § 641

Wire Fraud – 18 U.S.C. § 1343




Railroad Retirement Board, Office of Inspector General              40
                         REPORT

        FRAUD, WASTE, AND ABUSE




                Call the OIG Hotline:
                       1-800-772-4258

               E-mail: Hotline@oig.rrb.gov

  The OIG cannot ensure confidentiality to persons who provide
information via e-mail. Do not send information by e-mail that you
                 do not want a third party to read.

             Write: RRB OIG Hotline Officer
                   844 N. Rush Street
              Chicago, Illinois 60611-2092
